                                      U. S. Department of Justice
                                  Office of the Inspector General
                              Evaluation and Inspections Division




       Evaluation
           and
       Inspections
         Report
   Follow-up Review on the
Immigration and Naturalization
   Service’s Efforts to Track
 Foreign Students in the United
 States through the Student and
 Exchange Visitor Information
             System




   Report Number I-2003-003
          March 2003
                                    EXECUTIVE SUMMARY


       This report assesses the Immigration and Naturalization Service’s
(INS) progress in implementing the foreign student tracking system, the
Student and Exchange Visitor Information System (SEVIS). Historically,
the INS devoted insufficient attention to foreign students attending
United States schools, and its paper-based tracking system was
inefficient, inaccurate, and unreliable. In 1996, Congress directed the
INS to develop an electronic system to collect information on foreign
students, as well as the schools they attend.1 The INS began to develop
an electronic information system to track foreign students, which was
ultimately termed SEVIS.

       After authorities discovered that several of the September 11
terrorists had entered or remained in the United States on student visas,
the effort to improve the INS’s monitoring of foreign students intensified.
In October 2001, Congress directed the INS to fully implement SEVIS by
January 1, 2003.2 In May 2002, Congress further expanded the INS’s
information reporting and tracking requirements, and established a
transition program for issuing foreign student and exchange visitor visas
pending full SEVIS implementation.3

      Also in May 2002, the Department of Justice (DOJ) Office of the
Inspector General (OIG) issued a report on the INS’s contacts with two of
the September 11 terrorists.4 As part of that review, the OIG assessed
the INS’s efforts to implement SEVIS. We concluded that the INS’s
processes for certifying schools as eligible to accept foreign students were
inadequate because: (1) the certification and monitoring of schools at the
INS district offices were low-priority collateral duties; (2) INS adjudicators
responsible for reviewing and approving school applications were not

        The Illegal Immigration Reform and Immigrant Responsibility Act, Public Law
          1

104-208, September 30, 1996.

          2   USA PATRIOT Act, Public Law 107-56, October 26, 2001.

      3 The Enhanced Border Security and Visa Entry Reform Act of 2001, Public Law

107-173, May 8, 2002.

        4 The Immigration and Naturalization Service’s Contacts With Two September 11

Terrorists: A Review of the INS’s Admissions of Mohamed Atta and Marwan Alshehhi, its
Processing of their Change of Status Applications, and its Efforts to Track Foreign
Students in the United States.



U.S. Department of Justice                                                            i
Office of the Inspector General
Evaluation & Inspections Division
conducting adequate on-site reviews of schools; (3) INS adjudicators
received no formal training and lacked clear guidelines relating to the
certification process; and (4) the INS did not periodically review approved
schools for continued eligibility. In addition, we questioned whether the
INS would be able to meet the January 1, 2003, deadline for full
implementation of SEVIS.

        In September 2002, Congress held two hearings to examine the
status of SEVIS implementation.5 At these hearings, a senior INS official
testified that SEVIS would be technologically available to the schools as
of January 1, 2003. In his September 2002 testimony before Congress,
the DOJ Inspector General questioned whether the INS would be able to
certify all the necessary schools by January 30, 2003. He also expressed
concerns about the INS’s ability to adequately train and oversee the
contractors it hired to conduct on-site reviews of schools as a part of the
certification process. The senior INS official expressed confidence in the
ability of the INS’s contractors to complete the on-site reviews, and the
INS’s ability to complete its certification reviews by January 30, 2003.
However, she acknowledged that the INS would not be able to complete,
by January 1, 2003, all of the SEVIS training planned for INS personnel
and school officials.

      Beginning in January 2003, we conducted this follow-up review to
further assess the INS’s progress in implementing SEVIS. We also
examined the effect of the INS’s transfer to the Department of Homeland
Security (DHS) on the foreign student program and the implementation
of SEVIS.




        5 On September 18, 2002, the Immigration, Border Security, and Claims

Subcommittee of the House Judiciary Committee held a hearing on the Implementation
of the Foreign Student Tracking Program by the Immigration and Naturalization Service,
and on September 24, 2002, the House Subcommittees on 21st Century
Competitiveness and Select Education held a hearing on Homeland Security: Tracking
International Students in Higher Education – Progress & Issues Since 9-11.



U.S. Department of Justice                                                           ii
Office of the Inspector General
Evaluation & Inspections Division
Results in Brief

      This review found that the INS has made significant progress in
implementing SEVIS. The INS is requiring previously approved schools
to reapply and non-accredited vocational, language, and flight schools to
undergo on-site reviews prior to providing them access to SEVIS. In
addition, all INS offices and Department of State consular posts can
access SEVIS.

       However, despite this progress, we believe that SEVIS is not yet
fully implemented. The INS asserts that SEVIS was fully implemented by
January 1, 2003, the Congressionally mandated deadline, because it was
technically available as of that date. However, as stated in our
September 2002 testimony, we believe that full implementation includes
not only technical availability, but also ensuring that sufficient resources
are devoted to the foreign student program; ensuring that only bona fide
schools are provided access to SEVIS; ensuring that schools are
completely and accurately entering information on their foreign students
into SEVIS in a timely manner; adequately training DHS employees and
school representatives; and establishing procedures for using SEVIS data
to identify noncompliant and fraudulent operations as well as following
up when SEVIS data indicates fraud in a school’s program. Our follow-
up review determined that most of these actions have not yet taken
place. In addition, while the SEVIS database contains information on
newly enrolled foreign students, it will not contain information on all
continuing foreign students until August 1, 2003.

          Specifically, this follow-up review found:

          •     The INS did not complete certification reviews of all school
                applications. The INS adjudicated the applications of 1,779
                schools in the first phase of its two-phase SEVIS
                implementation.6 In the second phase, the INS guaranteed that
                all school applications submitted by November 15, 2002, would
                be processed by January 30, 2003. However, by
                January 30, 2003, the INS had adjudicated only 1,963 of the
                2,856 school applications it had received by
                November 15, 2002. Moreover, as of January 30, 2003, the INS
       6 The INS allowed schools to apply for SEVIS access in two phases. In Phase 1,

which ran from July 1, 2002, through September 24, 2002, only accredited schools that
had been previously approved by the INS within the past three years could apply. All
other schools had to wait to apply until Phase 2, which began September 25, 2002.



U.S. Department of Justice                                                        iii
Office of the Inspector General
Evaluation & Inspections Division
                had not adjudicated any of the 1,305 school applications it
                received after November 15, 2002. The adjudications had not
                been completed because the INS dedicated insufficient field
                adjudication staff to the task; technical problems with SEVIS
                impeded adjudicators’ access to the system; the contract firms
                the INS hired to conduct on-site reviews failed to promptly
                forward the schools’ supporting documentation to INS
                adjudicators; and one of the contract firms failed to conduct the
                reviews in a timely manner.

          •     The INS’s oversight of contractors is inadequate to ensure that
                schools are bona fide. The INS hired contract investigators to
                perform on-site reviews of schools and provided these
                investigators with INS-developed checklists to use in conducting
                their reviews. However, the INS failed to properly train the
                contract investigators, test the checklist for usefulness and
                completeness before putting it to use, and monitor the quality of
                contract investigators’ on-site reviews. As a result, the
                completed checklists were of limited use to INS field
                adjudicators in determining whether a school was bona fide.
                Field adjudicators were therefore forced to make decisions
                based on inaccurate or incomplete information. All of the INS
                field adjudicators we contacted criticized the quality of the
                information provided in the checklists, specifically citing the
                overall lack of descriptive comments, the lack of standardization
                among the individual contract investigators in completing the
                forms, and the presence of incomplete or contradictory
                information.

          •     The INS’s review of schools’ recordkeeping and internal controls
                is insufficient to ensure that schools are complying with SEVIS
                recordkeeping requirements or to identify internal control
                weaknesses that could allow fraud to occur undetected. The
                INS is relying on contract investigators to conduct compliance
                audits to ensure that schools have appropriate internal controls
                in place and are entering data into SEVIS accurately,
                completely, and timely. To assess whether schools have
                adequate internal controls in place to prevent or detect fraud in
                their foreign student program, the INS is requiring the contract
                investigators to describe certain school procedures on INS-
                developed checklists. To assess the schools’ compliance with
                SEVIS recordkeeping requirements, the INS is requiring
                contract investigators to verify information from the schools’

U.S. Department of Justice                                                    iv
Office of the Inspector General
Evaluation & Inspections Division
                records for at least five foreign students selected from a list
                provided by the INS. We do not believe this process is sufficient
                to identify a school’s internal control weaknesses, which could
                lead to fraud, or to conclude that a school’s SEVIS records are
                complete, accurate, and current. The INS-developed checklists
                do not address all internal control issues, such as whether the
                Designated School Officials (DSO) are properly safeguarding
                their SEVIS passwords. In addition, five records are an
                insufficient sample from which to draw a conclusion about a
                school’s compliance with SEVIS recordkeeping requirements.
                Further, the INS has not established a process for identifying
                and following up on either instances of noncompliance or
                possible fraud indicators identified during these reviews.

          •     The SEVIS database will not include information on all foreign
                students until August 1, 2003. The INS required that schools
                begin using SEVIS for newly enrolled foreign students by
                January 30, 2003 – a deadline it later extended to February 15,
                2003. However, schools have until August 1, 2003, to enter the
                data for their continuing foreign students into the SEVIS
                database. Therefore, the SEVIS database will not include
                information on all foreign students until August 1, 2003. Until
                then, the INS will continue to operate its inadequate, paper-
                based system to monitor continuing foreign students.

          •     The INS still has not provided adequate training and guidance
                to INS adjudicators or INS inspectors at ports of entry. Our
                review found that INS adjudicators did not receive adequate
                training or guidance on performing school adjudications,
                including what to look for when reviewing the contract
                investigator checklists and how to use the information to
                identify fraudulent schools. Further, although new foreign
                students currently are using SEVIS documents to enter the
                United States, the INS has not fully trained its inspectors at
                ports of entry on how to use SEVIS to identify whether the alien
                is a legitimate student.

          •     The INS has not established procedures to use SEVIS to identify
                and refer potential fraud for enforcement action. The INS needs
                to ensure that it uses the information from the SEVIS database
                to identify foreign students who are not complying with their
                visa requirements. The INS also needs to use this information
                to identify sham schools. The INS also must ensure that any

U.S. Department of Justice                                                     v
Office of the Inspector General
Evaluation & Inspections Division
                instances of potential fraud are referred for further investigation
                and enforcement action.

          •     The INS has not provided sufficient resources for enforcement
                activities. The INS has not committed a sufficient number of
                resources to fully investigate instances of potential fraud, such
                as foreign students who fail to enroll in a school, or fail to leave
                the United States once they depart school; sham schools; and
                DSOs at legitimate schools who commit fraud.

       We believe that the transfer of the INS to the DHS creates a
significant management challenge for the foreign student program and
SEVIS implementation. Responsibility for SEVIS implementation has
shifted from a bureau responsible for providing immigration benefits (the
Bureau of Citizenship and Immigration Services) to a bureau responsible
for enforcing immigration laws (the Bureau of Immigration and Customs
Enforcement). Close oversight is required to ensure a smooth transition.
In particular, due to the large number of schools that still need to be re-
certified to use SEVIS, the individuals responsible for certifying schools
must be identified quickly to receive sufficient training and guidance.

       Once fully implemented, SEVIS should provide an effective
mechanism for the INS to monitor both foreign students and the schools
that they attend. SEVIS, however, will not be fully functional as a
monitoring system until August 1, 2003, when its database will contain
complete information on all foreign students currently attending United
States schools and when it will be the sole system used to monitor
foreign students. Moreover, we found other continuing problems in the
full implementation of SEVIS, including serious deficiencies in the work
performed by the INS contractors conducting the school on-site reviews.
In addition, for SEVIS to be fully implemented and effective, the INS
needs to train its employees to use SEVIS to identify potential fraud and
noncompliance, better monitor the contract investigators responsible for
conducting on-site reviews of the schools, and ensure that there is
effective investigative and enforcement action taken against violators.

      We have identified actions that we believe should be taken to
ensure the effectiveness of monitoring foreign students attending United
States schools. While a majority of these actions are consistent with the
recommendations made in our original report, the INS either disagreed
with the recommendation or has not yet fully implemented the
recommendation. These actions include:


U.S. Department of Justice                                                        vi
Office of the Inspector General
Evaluation & Inspections Division
          •     Appointing a foreign student program manager to coordinate,
                and be accountable for, immigration issues affecting foreign
                students.

          •     Assigning full-time staff whose sole responsibility is to certify
                and monitor schools.

          •     Closely monitoring the contract investigators to ensure that
                they conduct on-site reviews in a timely and thorough manner.

          •     Improving the checklists used by the contract investigators in
                their on-site reviews to make them more descriptive and more
                useful to the adjudications staff.

          •     Coordinating with the Department of Education to conduct
                audits of schools to ensure they are complying with SEVIS
                reporting and recordkeeping requirements.

          •     Provide training to those responsible for certifying schools on
                the adjudication process and on using the contract investigator
                checklists to identify fraud indicators.

          •     Ensuring that possible fraud identified through the adjudication
                process and through analytical reviews is referred for
                investigation.

          •     Ensuring that sufficient investigative resources are available to
                investigate instances of potential fraud identified by SEVIS.

      We believe these actions should be taken and are critical to
ensuring that SEVIS is fully implemented, reliable, and effective.




U.S. Department of Justice                                                          vii
Office of the Inspector General
Evaluation & Inspections Division
                                    TABLE OF CONTENTS


INTRODUCTION ..................................................................................... 1

          Scope and Methodology.................................................................. 2

BACKGROUND ....................................................................................... 3

          SEVIS Implementation Schedule .................................................... 6
          Prior OIG Review Findings Related to the Certification Process ....... 7
          SEVIS School Certification Process................................................. 8

RESULTS OF THE REVIEW.................................................................... 11

          SEVIS Is Not Fully Implemented..................................................... 11
          Schools Not Approved Timely for Access to SEVIS .......................... 12
          Qualitative Problems Related to On-Site Reviews ............................ 18
          Compliance Audits Not Properly Performed .................................... 22
          Additional Training and Guidance Needed for INS Adjudicators ...... 23
          Additional Training Needed for INS Inspectors................................ 25
          Necessary Action Taken to Instruct DSOs ...................................... 26
          Identification of Fraud Indicators From SEVIS Data Needs Referral
               to Enforcement ....................................................................... 26
          Sufficient Resources Needed for Enforcement Activities .................. 27
          INS Offices and Department of State Consular Posts Have the
               Ability to Access SEVIS ........................................................... 29
          Transfer of the INS to the DHS to Have Major Impact on SEVIS
               Implementation....................................................................... 30

CONCLUSION ......................................................................................... 32

APPENDIX I – STATUS OF OIG RECOMMENDATIONS FROM THE
    ORIGINAL REPORT ...................................................................... 34

APPENDIX II – DHS MANAGEMENT’S RESPONSE ............................... 38

APPENDIX III: OIG ANALYSIS OF THE DHS MANAGEMENT
    RESPONSE.................................................................................... 41




U.S. Department of Justice
Office of the Inspector General
Evaluation & Inspections Division
                                    INTRODUCTION


       In May 2002, the Office of the Inspector General (OIG) issued a
report, The Immigration and Naturalization Service’s Contacts With Two
September 11 Terrorists: A Review of the INS’s Admissions of Mohamed
Atta and Marwan Alshehhi, its Processing of their Change of Status
Applications, and its Efforts to Track Foreign Students in the United States.
The report included our assessment of the Immigration and
Naturalization Service’s (INS) efforts to implement the Student and
Exchange Visitor Information System (SEVIS), an electronic system used
to track foreign students and exchange visitors. That report made
recommendations to improve the process by which the INS certifies
schools as eligible to accept foreign students, trains INS personnel and
Designated School Officials (DSO), and monitors schools for compliance.7

        In September 2002, Congress held two hearings to examine the
status of SEVIS implementation.8 At these hearings, a senior INS official
testified that SEVIS would be technologically available to the schools as
of January 1, 2003. In his September 2002 testimony before Congress,
the DOJ Inspector General questioned whether the INS would be able to
certify all the necessary schools by January 30, 2003. He also expressed
concerns about the INS’s ability to adequately train and oversee the
contractors it hired to conduct on-site reviews of schools as a part of the
certification process. The senior INS official expressed confidence in the
ability of the INS’s contractors to complete the on-site reviews, and the
INS’s ability to complete its certification reviews by January 30, 2003.
However, she acknowledged that the INS would not be able to complete,
by January 1, 2003, all of the SEVIS training planned for INS personnel
and school officials.

      The purpose of this follow-up review was to assess the INS’s
progress in implementing SEVIS. In this review, we also examined the


       See Appendix I for a summary of the recommendations pertaining to SEVIS
          7

implementation.

        8 On September 18, 2002, the Immigration, Border Security, and Claims

Subcommittee of the House Judiciary Committee held a hearing on the Implementation
of the Foreign Student Tracking Program by the Immigration and Naturalization Service,
and on September 24, 2002, the House Subcommittees on 21st Century
Competitiveness and Select Education held a hearing on Homeland Security: Tracking
International Students in Higher Education – Progress & Issues Since 9-11.



U.S. Department of Justice                                                           1
Office of the Inspector General
Evaluation & Inspections Division
impact of the March 2003 transfer of INS to the Department of Homeland
Security (DHS) on the foreign student program and the implementation
of SEVIS.

Scope and Methodology

       We conducted field work for our follow-up review during January
2003. We interviewed INS headquarters officials from the Immigration
Services Division, the Office of Information Resources Management, and
the Office of Investigations regarding the progress of SEVIS
implementation, and the impact of the transfer of the INS to the DHS on
the foreign student program. To determine the progress of the INS’s
efforts to approve schools for access to SEVIS, we contacted INS
adjudicators at ten district offices – Atlanta, Boston, Chicago, Detroit,
Houston, Los Angeles, Miami, New York City, Philadelphia, and
San Francisco. We contacted INS training officers at five airports –
Atlanta, Chicago, Miami, New York City, and San Francisco – to obtain
information on SEVIS training for INS inspectors. We also contacted
representatives from two school associations, the Association of
International Educators: NAFSA, and the College Career Association, to
obtain the schools’ perspectives on SEVIS implementation.

       The INS provided data on the number of schools that submitted
applications for access to SEVIS, applications the INS processed, and on-
site visits of applicant schools conducted by INS contract investigators.
In addition, we reviewed a sample of 20 on-site review reports submitted
by INS contract investigators to assess their completeness and adequacy.




U.S. Department of Justice                                              2
Office of the Inspector General
Evaluation & Inspections Division
                                     BACKGROUND


       The INS has several responsibilities related to foreign students.
These responsibilities include determining the eligibility of a school to
receive foreign students, inspecting the documents of foreign students
entering the United States, monitoring foreign students to ensure that
they maintain their visa status, facilitating the removal of foreign
students once their status ends, and approving transfers, practical
training, and program extensions for foreign students enrolled in
vocational programs.9 The INS also is responsible for processing the
requests of aliens in the United States who want to acquire student
status.

       In 1983, the INS implemented the Student and Schools System
(STSC). STSC contained basic information on INS-certified schools and
the foreign students who entered the United States with I-20s issued by
these schools. With respect to foreign students, STSC only contained
I-20 information; it did not indicate whether foreign students actually
enrolled in the school or include information on students’ academic
progress. The INS instead required schools to manually collect data on
foreign students attending their school, including names, addresses,
dates of birth, visa classifications, student status, courses of study,
academic disciplinary actions taken, and dates and reasons for
termination. Schools were not required to report this information
regularly to the INS, but were required to provide this information to the
INS when requested to do so. As a result, although the INS knew how
many foreign students entered the United States, it was unable to keep
track of them to ensure that they complied with their visa requirements.

       The discovery that one of the terrorists involved in the February
1993 bombing of the World Trade Center was in the United States on an
expired student visa resulted in the formation of a multi-agency task
force in June 1995 to review the INS’s process for monitoring foreign
students and exchange visitors. On September 30, 1996, Congress
enacted Public Law 104-208, the Illegal Immigration Reform and
Immigrant Responsibility Act (IIRIRA), which mandated that the INS
develop a system to collect foreign student information electronically
from colleges and universities. This requirement did not include

        9 Aliens are “in-status” when they meet their visa requirements. To be in-status,

foreign students must actively pursue a full course of study at an INS-approved school.



U.S. Department of Justice                                                            3
Office of the Inspector General
Evaluation & Inspections Division
vocational or language schools. IIRIRA also mandated that the INS
establish a fee, to be imposed on foreign students and exchange visitors,
to fund the system.

       In June 1997, the INS implemented a pilot project, the
Coordinated Interagency Partnership Regulating International Students
(CIPRIS), to test the concept of an electronic reporting system. According
to the INS, the CIPRIS pilot project was designed as a “throw-away”
program to test the feasibility of electronic reporting. Although the
CIPRIS pilot project officially ended in October 1999, the project
continued operating as a prototype pending the development of a
nationwide system. Subsequent to the pilot project, the design of the
new system changed to an Internet-based system. In July 2001, the INS
changed the name of the system to SEVIS to distinguish between the two
systems, which functioned similarly, but differed in design.

       CIPRIS, and later SEVIS, encountered opposition from some school
association lobbying groups, who primarily objected to the imposition of
a foreign student processing fee. Because the INS was relying on fee
collections to fund SEVIS, the delays in establishing the fee process
affected the development of SEVIS.

       The September 11, 2001, terrorist attacks drew renewed attention
to foreign students when it was determined that several of the terrorists
either were in the United States on student visas, had recently changed
their visa status to a student status, or had attended flight schools. On
October 26, 2001, Congress enacted the USA PATRIOT Act (Public Law
107-56), which required the INS to fully implement SEVIS by
January 1, 2003. The law also required the INS to include information
on each foreign student’s or exchange program visitor’s port of entry and
date of entry, and it expanded the types of schools required to participate
in SEVIS to include flight schools, language training schools, and
vocational schools. Congress provided $36.8 million in appropriations to
fully fund the SEVIS implementation.

      The Enhanced Border Security and Visa Entry Reform Act of 2001
(Public Law 107-173), enacted on May 8, 2002, required additional
information on foreign students to be captured electronically, such as the
issuance of an I-20, the issuance of a visa, and the registration and
enrollment of the student at the school.10 It also required schools to

         When an alien is accepted to a program offered by an INS-approved school,
          10

that school issues an INS form I-20 to the student. The alien presents the I-20 to a

U.S. Department of Justice                                                             4
Office of the Inspector General
Evaluation & Inspections Division
report to the INS, no later than 30 days after the school registration
deadline, the failure of an alien to enroll or commence participation in an
INS-approved school, or a designated exchange visitor program. The law
also established a transition program for issuing foreign student and
exchange visitor visas pending full SEVIS implementation.

     Since May 2002 the INS has published a series of rules in the
Federal Register to implement SEVIS:

          •     On May 16, 2002, the INS published a proposed rule that
                established the regulatory framework for SEVIS and set a
                mandatory compliance date of January 30, 2003, for schools to
                use SEVIS. The proposed rule recognized that the compulsory
                date of January 30, 2003, might pose challenges for schools
                and solicited comments from the schools regarding the amount
                of time the schools believed would be necessary to convert to
                SEVIS.

          •     On July 1, 2002, the INS published an interim rule allowing
                schools to preliminarily enroll in SEVIS provided that they met
                specified criteria. For these schools, the INS waived the
                requirement of an on-site review as a condition for approval.
                The preliminary enrollment period was effective from
                July 1, 2002, until the INS published its interim certification
                rule.

          •     On September 25, 2002, the INS published an interim
                certification rule requiring that all schools not already approved
                for SEVIS during the preliminary enrollment period undergo a
                certification review, including an on-site review, prior to
                enrollment in SEVIS. The rule required schools to enter all
                continuing students into SEVIS by the end of the next academic
                cycle. The rule also gave the INS the option of deferring the
                initial on-site review requirement and allowing conditional
                enrollment in SEVIS for accredited schools or for public
                secondary schools.




consular officer when applying for a student visa as proof of acceptance to an INS-
approved program. The alien also presents the I-20 to an inspector upon entry to the
United States.



U.S. Department of Justice                                                             5
Office of the Inspector General
Evaluation & Inspections Division
          •     On December 11, 2002, the INS published the final version of
                its May 16, 2002, proposed SEVIS rule.11 The rule established
                August 1, 2003, as the date by which schools must issue SEVIS
                I-20s to all of their continuing students. The rule became
                effective on January 1, 2003.

SEVIS Implementation Schedule

      While the INS established January 30, 2003, as the mandatory
implementation date by which all schools were required to begin issuing
SEVIS I-20s to their new students, the INS subsequently extended this
date to February 15, 2003. During January 2003, as more schools and
foreign exchange visitor program sponsors began to access SEVIS,
technical problems developed. Users had difficulty logging onto SEVIS,
and as the volume of users grew, the system became increasingly
sluggish. The INS also was struggling to complete its certification
reviews of those schools that had submitted their applications by
November 15, 2002.12 Until the INS completed these reviews, these
schools would not be able to accept any new foreign students.

      On January 29, 2003, the INS issued a statement extending the
mandatory compliance date from January 30, 2003, to
February 15, 2003. During this 2-week extension, the INS planned to
correct the system’s problems and complete its certification reviews of
those schools that applied by November 15, 2002.13

      The INS is requiring all schools to use SEVIS for I-20s issued to
new students after February 15, 2003, and it is giving schools until
August 1, 2003, to reissue I-20s to their continuing students. Until

           On December 12, 2002, the Department of State issued an interim final rule
          11

setting forth the same compliance dates for foreign exchange visitor program sponsors.
Although the INS is responsible for monitoring the status of exchange visitors, the
Department of State is responsible for approving and monitoring exchange visitor
program sponsors.

          The September 25, 2002, interim certification rule stated, “In order to be
          12

reviewed by the [INS] and be granted access to SEVIS prior to the mandatory
compliance date, schools are strongly encouraged to submit an electronic Form I-17 to
the [INS] no less than 75 days prior to the compliance deadline. The [INS] cannot
guarantee timely final action on any Form I-17 petition not filed at least 75 days prior to
the SEVIS mandatory compliance deadline.”

           According to the INS’s response to this report, it was able to complete its
          13

certification reviews of these schools by February 13, 2003.

U.S. Department of Justice                                                               6
Office of the Inspector General
Evaluation & Inspections Division
then, the INS will continue to send the non-SEVIS I-20s to a contract
firm for data entry into its prior database, STSC.

       At the time of our original review, STSC contained approximately
72,000 active INS-approved schools. Accordingly, our report in May
2002 questioned whether the INS would be able to properly review and
re-certify all of the schools prior to the congressionally-mandated full
implementation date of January 1, 2003. The INS subsequently
acknowledged to us that it believed the number of active schools in STSC
was grossly overstated. According to its website, the INS estimates that
90 percent of the 72,000 INS-approved schools included in STSC were
either inactive or no longer eligible for approval. The website states:

                     It’s true that 72,000 schools have at one time or
                     another participated in the foreign student
                     program. The vast majority of those institutions
                     are not currently active participants. Many are
                     no longer in business. Many only participated
                     on a one-time basis.         Many were public
                     elementary and middle schools that can no
                     longer sponsor foreign exchange students…INS
                     recently completed a study of the schools that
                     sponsored foreign students during the past three
                     years. We determined that 7,400 schools are
                     actively involved in bringing foreign students to
                     the United States.

Prior OIG Review Findings Relating to the Certification Process

       Our original review was critical of the INS’s process for certifying
schools as eligible to accept foreign students, and identified the following
deficiencies in the certification process:

          •     The certification and monitoring of schools at the district offices
                were low-priority collateral duties,

          •     INS adjudicators responsible for reviewing and approving school
                applications were not conducting on-site reviews of schools or
                personally interviewing DSOs to verify that the schools were
                bona fide,

          •     INS adjudicators received no formal training and lacked clear
                guidelines relating to the certification process, and

U.S. Department of Justice                                                       7
Office of the Inspector General
Evaluation & Inspections Division
          •     The INS did not periodically review approved schools for
                continued eligibility.

      Because of these deficiencies, we concluded that the INS’s STSC
database was unreliable, incomplete, and inaccurate. Our sample of 200
schools selected from the STSC database identified at least 86 that
appeared to be inactive. We identified other schools that were approved
and active but not entered into STSC. Additionally, we identified
numerous instances where the school addresses and names had
changed but were not updated in STSC. We noted in our original report
that as a result of the lack of attention to the program, fraud had become
pervasive.

      In implementing SEVIS, the INS stated that it would address
several of the deficiencies we identified by:

          •     Requiring all schools to reapply for approval to accept foreign
                students,

          •     Requiring schools to undergo a re-certification review every two
                years,

          •     Directing INS district office managers to dedicate sufficient
                personnel to perform the certifications,

          •     Hiring contract firms to conduct on-site reviews of schools in
                order to verify that schools are bona fide and are complying
                with INS’s records and reporting requirements, and

          •     Providing initial formal training for district office adjudicators
                and developing an on-line training module for future training.

SEVIS School Certification Process

       The INS decided to require all schools previously approved to
resubmit applications. To facilitate this application review, the INS
instituted a two-phased process for certifying schools. In the first phase,
effective July 1, 2002, through September 24, 2002, the INS established
a preliminary enrollment period for schools that met certain
requirements. Schools could apply during this period if they were:



U.S. Department of Justice                                                           8
Office of the Inspector General
Evaluation & Inspections Division
          •     Accredited by certain accrediting organizations,14

          •     Continuously approved by the INS for the last three years for
                the enrollment of F (Academic or language) or M (vocational)
                students, and

          •     Not a flight school.

      These schools were required to submit an electronic I-17
application through SEVIS.15 Senior INS officers assigned to
headquarters adjudicated those applications submitted during the
preliminary enrollment period. The INS deferred the required on-site
review for these schools.16 According to the INS, it approved 1,418
schools during the preliminary enrollment period.

       During the second phase, starting on September 25, 2002, the INS
accepted applications from other schools. To ensure completion of the
certification review by the mandatory compliance date, the INS in its
interim SEVIS rule “strongly encouraged” schools to submit their I-17
applications by November 15, 2002. These schools also were required to
submit an electronic I-17 application through SEVIS. Once the
application was received, INS headquarters directed one of its three
contract firms to conduct an on-site review. INS district office staff
adjudicated these applications, using the on-site review reports
submitted by the contract investigators and supporting documentation
submitted by DSOs to determine whether or not to approve the school for
access to SEVIS.

       The INS also requires that schools be re-certified every two years.
The INS does not intend to publish its rule implementing the 2-year re-
certification requirement until after all schools are using SEVIS.
According to the INS, SEVIS will automatically generate reminders to

          The rule specifies that private elementary and secondary schools must be
          14

accredited by an organization holding membership in the Council for the American
Private Education or the American Association of Christian Schools, and that
postsecondary, language, and vocational schools must be accredited by an accrediting
organization approved by the U.S. Department of Education.

       15 Form I-17 is a standard INS form used by a school to request approval from

the INS to admit nonimmigrant students.

       16 The INS’s July 1, 2002, interim rule states that all schools granted

preliminary enrollment in SEVIS will be required to undergo an on-site review prior to
May 2004.

U.S. Department of Justice                                                               9
Office of the Inspector General
Evaluation & Inspections Division
both the appropriate INS district office and school when the certification
period is expiring.




U.S. Department of Justice                                              10
Office of the Inspector General
Evaluation & Inspections Division
                                    RESULTS OF THE REVIEW


SEVIS IS NOT FULLY IMPLEMENTED

          While the USA PATRIOT Act mandated that the INS fully
          implement SEVIS by January 1, 2003, the system was only
          technically available by that date. We believe that SEVIS
          has not been fully implemented because the program
          elements essential to ensuring the integrity of the system
          are not fully in place. These elements include: ensuring
          that sufficient resources are devoted to the foreign student
          program; ensuring that only bona fide schools are provided
          access to SEVIS; ensuring that schools are completely and
          accurately entering information on their foreign students
          into SEVIS in a timely manner; adequately training DHS
          employees and school representatives; and establishing
          procedures for using SEVIS data to identify noncompliant
          and fraudulent operations as well as following up when
          SEVIS data indicates fraud in a school’s program.


      This review found that the INS has made significant progress in
implementing SEVIS. The INS is requiring previously approved schools to
reapply and non-accredited vocational, language, and flight schools to
undergo on-site reviews prior to providing them access to SEVIS. In
addition, all INS offices and Department of State consular posts can access
SEVIS.

        However, despite this progress, we believe that the INS has not yet
fully implemented SEVIS. INS management makes a distinction between
implementing the system and implementing the foreign student program,
and therefore continues to assert that it met the January 1, 2003,
mandated deadline because the system was technically available as of this
date. However, as stated in the Inspector General’s September 2002
testimony, we do not believe that system implementation can be viewed
separately from program implementation. For SEVIS to be effective, it is
essential to ensure that the foreign student data contained in the system is
complete, accurate, and timely, and that only bona fide schools are gaining
access to SEVIS. In addition, processes must be in place to identify and
follow-up on possible fraud in the foreign student program. Without having
the program elements in place, there is no assurance that the data in SEVIS
is reliable and that fraudulent schools are not being provided access to

U.S. Department of Justice                                            11
Office of the Inspector General
Evaluation & Inspections Division
SEVIS. These program elements are discussed in detail in subsequent
sections of this report.

        In addition, SEVIS will not be fully functional as a monitoring system
until August 1, 2003, when its database will contain complete information
on all foreign students currently attending United States schools and when
it will be the sole system used to monitor foreign students. Until then, the
INS will continue to use its paper-based STSC system to monitor continuing
foreign students who have non-SEVIS I-20s. INS inspectors at the ports of
entry will continue to send a copy of the non-SEVIS I-20 forms to the INS
contracting facility in London, Kentucky, for data entry into STSC. In
addition, schools that have foreign students, but that have not been re-
certified, can continue to operate until August 1, 2003, as long as they do
not accept new students.


SCHOOLS NOT APPROVED TIMELY FOR ACCESS TO SEVIS

          The INS failed to complete its reviews of those schools for
          which it guaranteed a decision by January 30, 2003.
          Processing delays occurred due to insufficient field
          adjudication staffing; technical problems related to the
          adjudicators’ password access to SEVIS; and the failure of
          the INS contract investigators to conduct on-site reviews in
          a timely manner, and to transmit the schools’ supporting
          documentation to the INS adjudicators.


      The INS established a mandatory implementation date of
January 30, 2003, by which all schools were required to issue SEVIS
I-20s to their new students. The INS also guaranteed that it would process,
by January 30, 2003, all I-17 applications submitted by
November 15, 2002. As shown in Table 1, the INS was not able to honor its
commitment. As of January 30, 2003, it had processed only 1,963 (69
percent) of the 2,856 applications that had been submitted between
September 25, 2002, and November 15, 2002.




U.S. Department of Justice                                             12
Office of the Inspector General
Evaluation & Inspections Division
                     Table 1: SEVIS Certification Workload Statistics
                                 as of January 30, 2003

Application Date                      Applications Approvals Denials Pending
July 1, 2002 to
                                         1,779            1,418         361           0
September 24, 2002
September 25, 2002 to
                                         2,856            1,927          36           893
November 15, 2002
November 16, 2002 to
                                         1,305              0            0         1,305
January 30, 2003
Totals                                   5,940            3,345         397        2,198
Source: INS

Note: According to the INS, the majority of the denials during the period July 1, 2002, to
September 24, 2002, were for schools that did not meet the criteria for the preliminary
enrollment period. These schools may have reapplied and been approved after September
24, 2002.

      Because of the application backlog, the INS exercised its option to
allow conditional enrollment in SEVIS for accredited schools and public
secondary schools prior to the required on-site reviews.17 This allowed the
INS to approve these schools without first requiring an on-site review. The
INS did not make this decision until the end of January 2003, although it
was aware of one of the contract firm’s delays in conducting the on-site
reviews at the end of December 2002. The INS is requiring all schools to
issue SEVIS I-20s to new students accepted after February 15, 2003. After
this date, schools need to wait for the INS’s approval before accepting any
new foreign students.

          Insufficient Staffing to Process SEVIS Applications

       We found in our original review that the INS assigned responsibility
for certifying and monitoring schools to field office staff as a part-time,
collateral duty. INS staff spent minimal time monitoring schools; as a
result, some schools that had ceased their operations or that no longer met
INS eligibility requirements issued I-20s fraudulently to aliens, allowing
them to enter the United States. To improve the monitoring of schools, we
recommended that the INS establish a dedicated unit within each field office
to focus on the student and schools function. The INS did not agree that
full-time personnel were necessary.



        Conditional enrollment is granted only for those schools that applied as of
          17

November 15, 2002.

U.S. Department of Justice                                                            13
Office of the Inspector General
Evaluation & Inspections Division
      Consequently, INS headquarters officials did not identify the specific
resources needed to ensure that schools would be approved for access to
SEVIS in a timely manner. Instead, the INS directed its field office
managers to devote sufficient resources to perform these certifications. A
September 19, 2002, memorandum from the INS’s Executive Associate
Commissioner for Field Operations to the INS regional directors stated:

                     It is mandatory that the field officers assigned to
                     Student/Schools responsibilities be given sufficient
                     time to accomplish these [certification] tasks…Once
                     the      full     certification  program      begins,
                     Student/Schools responsibilities are to be the
                     primary focus of the assigned officers, with other
                     duties being secondary. However, this is not to
                     imply that all Student/Schools officers will need 40
                     hours per week to accomplish the tasks, nor that
                     there may not be a need to devote more than one
                     officer to this task.

       Despite the directive, we found that the program continued to be
insufficiently staffed. At six of the ten districts we contacted, only one
adjudicator had been assigned responsibility for performing the
certifications of schools applying for SEVIS access. And at only four of
these six locations was this the full-time responsibility for the adjudicator.
Most adjudicators we spoke to commented that the problem was not that
management did not consider SEVIS a priority, but that there were too
many priorities and not enough staff. At six locations, SEVIS adjudicators
also were responsible for other programs, such as the Temporary Protected
Status (TPS) program and the National Security Entry-Exit Registration
System (NSEERS). At one district office the sole SEVIS adjudicator stated
that he was told specifically by management that SEVIS was not his
priority. In a January 17, 2003, letter to the INS, one of the school
associations stated that some schools were told by their district offices that
their main priority was NSEERS.

        We also found that at five of the INS district offices we contacted the
INS had assigned primary responsibility for performing the school
certifications to personnel who had no prior experience in processing school
applications. Several of these adjudicators mentioned to us that they had
little idea of what they were looking for. At two of these locations,
management had reassigned the function from an experienced inspector,
who previously had been responsible for the program, to an inexperienced



U.S. Department of Justice                                                   14
Office of the Inspector General
Evaluation & Inspections Division
adjudicator. Inexperienced adjudicators are less likely to be familiar with
and identify anomalies that may indicate a fraudulent school.

       At eight of the ten district offices we contacted, adjudicators reported
being overwhelmed by the workload of pending applications for school
certifications. At the ten district offices we contacted, the number of
applications awaiting processing by January 30, 2003, ranged from 43 to
364, with an average workload of 184 applications.18 As of mid-January,
adjudicators at these locations had completed processing only 11 to 45
percent of these applications, with an average completion rate of 26 percent.
In addition to reviewing I-17 applications, adjudicators spent extensive time
responding to telephone calls and e-mails from DSOs inquiring about the
status of their applications or requesting technical advice on using SEVIS.
The adjudicators reported being frustrated when responding to these calls
because they were not informed by INS headquarters of the status of the
on-site reviews, and therefore were unable to appropriately respond to the
DSOs. Nearly all the adjudicators that we contacted were skeptical of their
ability to complete their reviews of the applications by January 30, 2003.

        The problems the INS experienced during this initial SEVIS
certification period highlight the need for the INS to assign full-time, well-
trained personnel to the program. The workload will continue beyond the
initial period. Between November 15, 2002, and January 30, 2003, the INS
received an additional 1,305 applications which still needed review. In
addition, an unknown number of schools will be submitting applications
between January 31, 2003, and the August 1, 2003, deadline for mandatory
use of SEVIS for continuing students. Also, all schools will need to reapply
for certification every two years. The INS needs to develop a cadre of
experienced adjudicators who are familiar with the process and the schools
in their districts, so that they can more readily identify fraudulent
applications.

          Password Problems

      We also found that at six of the ten district offices we contacted
adjudicators were unable to access SEVIS. This was a major cause for
delays, because SEVIS requires the adjudicators to electronically approve I-
17 applications. At four districts, some of the adjudicators had not yet been
assigned passwords, and at two other districts, adjudicators complained of
continual problems in using passwords. At one district office, the


        These numbers include only those applications submitted to the INS as of
          18

November 15, 2002, for which INS originally guaranteed a decision by January 30, 2003.

U.S. Department of Justice                                                       15
Office of the Inspector General
Evaluation & Inspections Division
adjudicator stated that because no one at her location had yet been
assigned a password, she was manually adjudicating the applications and
sending the results to INS headquarters where the results were
electronically entered into SEVIS. Another adjudicator said that, after
contacting INS Information Technology Support 11 times within a 2-week
period due to a nonworking password, he was told that his experience was
common and that another adjudicator had already been provided with 13 or
14 different passwords.

          On-Site Reviews Not Conducted Timely

       In September 2002, the INS contracted with three investigative firms
to conduct on-site reviews. Although we believe that the on-site reviews
would be more effective if conducted by INS staff familiar with the program,
the INS’s decision to use contract investigators was understandable given
the tight implementation deadline, the volume of on-site reviews needed to
be conducted, and the lack of in-house resources to perform the on-site
reviews. The INS’s statement of work required each contract investigative
firm to have over 500 investigators available to conduct the on-site reviews.
The INS estimated that it would order 400, 1,250, and 2,500 on-site reviews
from the contract firm respectively, with the greatest number of reviews
assigned to the lowest bidder.

      The statement of work gives contract firms ten working days to
conduct each on-site review and to report the results to the INS. INS
headquarters personnel monitor the contract firms to identify delays. The
INS developed a checklist for the contract investigators to use when
conducting the reviews, in lieu of an investigative report. The contract
investigators were required to submit a completed electronic checklist to
INS headquarters and a hard copy of the checklist, along with supporting
documentation collected at the school, to the applicable INS district office.

      The INS experienced serious performance problems with one of its
contract firms in meeting the 10-day deadline. This contract firm had been
assigned the largest number of on-site reviews to conduct. On
January 16, 2003, the INS provided us with a copy of the spreadsheets they
use to track the contract firm’s compliance with meeting the 10-day
schedule. These spreadsheets did not include all of the schools that
submitted applications, but only those schools that submitted applications
by November 15, 2002. The timeliness problems of this contract firm are
evident, as shown in Table 2.




U.S. Department of Justice                                              16
Office of the Inspector General
Evaluation & Inspections Division
                 Table 2: On-Site Reviews Assigned and Completed as of
                                    January 16, 2003

                                           Contract Firm 1 Contract Firm 2
          Total Assigned                         566            1,232
          Total Completed                        501             545
          Percent Completed                    88.5%           44.2%
          Number Outstanding                     65              687
          Number Received Late                   33              470
          Percent Received Late                   6.6%                   86.2%
          Average Days to Complete                 6.4                    19.5
        Source: INS

        Note: The INS did not have the data available for its third contractor at the time of
        our review. According to INS officials, there were no performance problems relating
        to timeliness for the third contractor.

          Delays in Receiving Supporting Documentation From Schools

        Processing delays also occurred because the contract investigators
often failed to collect the required supporting documentation from the
schools. The adjudicators we contacted complained that many of the I-17
applications submitted by the contract investigators were missing DSO
signatures, although the contract investigators indicated on the checklist
that they picked up the signed copy. An INS headquarters official told us in
mid-January 2003 that the INS was aware of this problem and had brought
it to the attention of the contract firms. However, the adjudicators we spoke
to indicated that the problem was continuing. One adjudicator stated that
a contract investigator had written on the checklist that he did not pick up
a copy of a signed I-17 because he “didn’t want to wait.” The adjudicators
also complained that contract investigators were neglecting to collect other
supporting documentation from the schools, such as accreditation
certificates. This lack of documentation caused additional processing
delays, because the adjudicator must contact the school and wait for the
school to send the missing information before the application can be
processed.




U.S. Department of Justice                                                             17
Office of the Inspector General
Evaluation & Inspections Division
QUALITATIVE PROBLEMS RELATED TO ON-SITE REVIEWS

          The INS is not sufficiently monitoring the contract
          investigators to ensure that the on-site reviews are
          performed properly. In addition, the INS did not take the
          necessary actions, such as testing the checklist, to ensure
          that the information gathered during the on-site reviews is
          useful to the INS adjudicators responsible for certification
          decisions.   Due to problems with the quality of these
          reviews, the value of the on-site reviews, as currently
          conducted, is questionable.


      We identified a number of issues relating to the quality of the on-site
reviews and the usefulness of the information on the checklist. All of the
adjudicators we spoke to criticized the quality of the information included in
the checklists. The types of comments made included:

          •     The quality of the completed checklists was widely inconsistent,
                varying among the individual contract investigators. Adjudicators
                complained that most of the checklists were sparse, containing
                little or no narrative comments about the physical characteristics
                or the operations of the school. Many contained questionable
                comments. One adjudicator stated that a contract investigator
                wrote “plaques on wall” when asked to provide evidence that the
                DSO was aware of INS regulations. Another adjudicator stated
                that a contract investigator wrote “looks nice from the outside,”
                when asked to describe the school. Many of the adjudicators we
                contacted questioned whether the contract investigators knew
                what they were looking for, and commented that they did not seem
                very well-trained.

          •     Generally, the checklists were not useful to the adjudicators. The
                adjudicators stated that they tended to skim the checklists and
                read only the narrative comments. If there were no narrative
                comments, the checklists were not used.

          •     Some of the completed checklists lacked basic information. One
                adjudicator stated that 12 of the checklists he received were so
                deficient that he did not know what to do with them. He noted
                that he received a blank checklist from a contract investigator
                who, upon visiting a school that was closed for the holidays, had
                simply noted “not conducted because school was closed.” Another

U.S. Department of Justice                                                   18
Office of the Inspector General
Evaluation & Inspections Division
                adjudicator noted that a contract investigator who forgot his ID
                became so angry when the school refused to provide him access to
                the school records that he sent an incomplete report, noting that
                the school was “uncooperative.” Because the adjudicators were
                not allowed to directly contact the contract investigators for
                clarification, they were unsure what to do with these deficient
                checklists.

          •     The checklists submitted by the contract investigators varied in
                format. Although the INS provided the three contract firms with a
                standard checklist, some of the contract firms, or in some cases
                some of the individual investigators, revised the form. The
                adjudicators complained that the lack of a standard format made
                it difficult to review. In addition, although contract investigators
                were required to provide hard copies of their completed reports to
                the district offices, they were not always doing so. One adjudicator
                estimated that 80 percent of the checklists he received were sent
                electronically. Many of these checklists were missing the contract
                investigators’ signatures.

      We reviewed a sample of 20 completed contract investigator
checklists, pertaining to vocational, language, and flight schools to examine
qualitative issues such as completeness, accuracy, and adequacy. Our
findings mirrored the comments we received from the adjudicators. Most
checklists were sparse, containing few narrative comments, with 3 of the 20
containing no narrative comments at all. Our additional observations about
the checklists we reviewed were as follows:

          •     The checklists appeared to confuse the contract investigators.
                Although the INS has different requirements for each type of
                school (for example, flight or language schools), it combined all the
                requirements on a single checklist. This may explain why, on half
                of the checklists we reviewed, the contract investigator completed
                the forms incorrectly. We believe that the INS should develop
                separate checklists for academic, vocational, language, and flight
                schools, each of which have different requirements.

          •     The checklists required the contract investigators to give “yes” or
                “no” opinions on such issues as whether the school is bona fide.
                We found that sometimes the contract investigator’s opinion was
                contradicted by other information on the checklist. For example,
                one contract investigator visiting a vocational school noted that the
                school maintained no records on class performance, attendance,

U.S. Department of Justice                                                     19
Office of the Inspector General
Evaluation & Inspections Division
                and graduation records; had no catalog; had no available financial
                records; and according to the DSO, students routinely opened
                their own businesses after completing their program. Yet, the
                investigator concluded, “There is little doubt that this is a real
                school.” We believe the contract investigators should be limited to
                providing sufficient factual and descriptive information to assist
                the INS adjudicators in determining whether the school is bona
                fide.

          •     An important part of the on-site review in determining a bona fide
                school is observing actual classes and providing details of what is
                observed. One checklist for a language school stated, “Classroom
                instruction was not viewed as classes were not in session when I
                was touring the facility.” Another checklist stated “No classes in
                the morning.” Several others provided no information other than
                “personally observed” or “verified.” Due to the importance of this
                information, contract investigators should be required to obtain a
                schedule of classes and make a return visit when the classes are
                in session. Contract investigators also should be required to
                provide a full description of their observations.

          •     Ten of the checklists we reviewed did not contain the name of the
                contract investigator. If qualitative issues arise, this is needed for
                accountability. For quality control purposes, the checklists also
                should include the amount of time the contract investigator spent
                at the school.

      In part, the problems with the checklists were due to the INS’s failure
to pretest the checklist in the field by having experienced school
adjudicators conduct a sample of on-site reviews and provide feedback on
the checklist deficiencies before using it nationally. We believe that had
there been testing of the checklist, the INS could have identified qualitative
problems and made the checklist a more useful instrument. To improve the
usefulness of the checklist, the INS needs to obtain feedback from the field
adjudicators and make appropriate revisions.

      In addition, the INS provided no training to the contract investigators.
The INS instead required the three contract firms to train their own
employees in accordance with the statement of work. According to the
statement of work: “The Contract firm shall provide trained investigators
nationwide who have the required knowledge and expertise in performing
time-sensitive investigations, test and evaluation, certification and
accreditation and compliance audits and inspections.” Based on the poor


U.S. Department of Justice                                                      20
Office of the Inspector General
Evaluation & Inspections Division
quality of some of the completed checklists we reviewed, and the comments
made by the field adjudicators, we question the training and qualifications
of some of the contract investigators. We believe that the INS should not be
relying on the contract investigators to provide opinions on such issues as
compliance and bona fides, but should instead better instruct the
investigators on providing sufficient, thorough descriptions of the schools’
operations.

      In October 2002, we discussed with INS officials the need to establish
quality control over the on-site reviews conducted by the contract
investigators. The INS stated that it routinely reviewed copies of the
contract investigators’ on-site review checklists for completeness and
timeliness. The INS did not agree with our suggestion to spot-check the
contract investigators’ reviews, but instead expressed confidence in the
contract firms’ abilities. We believe that quality control reviews are
necessary for three reasons:

          •     To ensure that contract investigators are conducting thorough
                reviews. Due to the volume of site reviews and the tight time-
                frame given to contract investigators to complete the reviews,
                contract investigators may be more concerned with completing the
                review quickly as opposed to thoroughly. Some adjudicators we
                contacted questioned the thoroughness of the reviews. One
                adjudicator mentioned that the officials at one school told her that
                the contract investigator’s on-site review consisted of solely picking
                up documents.

          •     To ensure that investigators are actually visiting schools and not
                just obtaining information telephonically. One of the adjudicators
                we contacted cited suspicions that this was occurring.

          •     To deter and detect fraud. In the past, sham schools have been
                established as covers for alien smuggling operations. Individuals
                operating sham schools may bribe contract investigators to provide
                a clean on-site review report. INS spot-checks could help identify
                instances where this is occurring.




U.S. Department of Justice                                                     21
Office of the Inspector General
Evaluation & Inspections Division
COMPLIANCE AUDITS NOT PROPERLY PERFORMED

          The INS is inappropriately using contract investigator
          checklists to determine if schools have adequate internal
          controls in place and whether schools are entering data
          into SEVIS accurately, completely, and timely.


       In our original review, we recommended that the INS conduct audits
of approved schools to determine whether proper internal controls are in
place and whether the school’s foreign student data is entered into SEVIS
completely, accurately, and timely. This is important not only for
identifying internal control weaknesses, which could lead to fraudulent
activities, but also for ensuring the integrity of SEVIS data. On
May 14, 2002, Congress enacted the Enhanced Border Security and Visa
Entry Reform Act of 2002, which requires the INS, in consultation with the
Department of Education (ED), to conduct a review every two years of the
institutions certified to accept foreign students and exchange visitors to
determine whether the institutions are in compliance with the statutory
recordkeeping and reporting requirements.

      The INS agreed with our recommendation and stated that its primary
audit mechanism would be the on-site reviews by contract investigators,
and that the need for additional audits would be identified through analytic
reviews. Currently, when the INS requests an on-site review, it also
provides the contract firm with a list of foreign students attending the
school. When conducting the on-site review, the contract investigator is
supposed to select at least five names from this list and obtain, from the
school’s records, detailed information on each student. The INS will
compare the information gathered by the contract investigator from the
school’s manual records to the school’s SEVIS records to verify accuracy
and completeness.

       We do not believe that these INS procedures are sufficient to identify
internal control weaknesses or to conclude that a school’s SEVIS records
are complete, accurate, and current. We question whether contract
investigators are qualified to conduct audits, which involves an assessment
of internal controls and a sufficient sampling of records. We also noted
numerous quality concerns relating to some contract investigators’
performances, as described in the previous section. The checklist
completed by the contract investigators indicates that some internal control
issues, such as the DSOs’ involvement with recruiting activities, are
reviewed. However, other important internal control issues, such as


U.S. Department of Justice                                             22
Office of the Inspector General
Evaluation & Inspections Division
whether the DSOs are U.S. citizens or legal permanent residents, or
whether the DSOs are properly safeguarding their passwords, are not. In
addition, five records are not a sufficient sample from which to conclude
that the school’s SEVIS entries are complete, accurate, and current,
particularly at schools with large populations of foreign students. The INS
also has not established a process for identifying and following up on either
instances of noncompliance or possible fraud indicators identified during
these reviews.

      The ED already requires schools participating in federal student
financial aid programs to have an independent auditor conduct both
financial and compliance audits. Therefore, an effective way for the INS to
help ensure that SEVIS audits are performed would be to coordinate with
the ED to incorporate SEVIS reviews into the ED required audits. This
should encompass many schools, but the INS still would need to ensure the
remaining schools were audited.


ADDITIONAL TRAINING AND GUIDANCE NEEDED FOR INS
ADJUDICATORS

          INS adjudicators need additional training and guidance on
          how to perform certifications, including what to look for
          when reviewing the contract investigator checklists and
          how to use the information to identify fraudulent schools.


      In our original report, we identified deficiencies in training INS
employees assigned to adjudicate I-17 applications. None of the designated
school adjudicators at the four district offices we visited during our original
review had received formal training. Many stated that they did not know
what to look for when reviewing I-17 applications. Adjudicators also
expressed a need for better guidelines to review the applications effectively.

       To prepare the INS adjudicators for SEVIS, the INS conducted two
training sessions, in June 2002 and August 2002. According to the
adjudicators, the training primarily focused on the regulations and the
technical aspects of SEVIS. Seven of the ten district office adjudicators we
spoke to during our follow-up review attended the training.19 Opinions
varied on the usefulness of this training. Several adjudicators, newly

       19 Of the three who did not attend, two assumed I-17 adjudication responsibilities

subsequent to the training, and one was unable to attend because she was on a detail
outside of the United States.

U.S. Department of Justice                                                          23
Office of the Inspector General
Evaluation & Inspections Division
assigned to the I-17 adjudications function, commented that they found it
difficult to follow the training because they were unfamiliar with the basics.
One mentioned that at the time of the training she did not even know what
an I-17 application was. In general, the attendees commented that they
would like to have training on how to adjudicate the I-17s. We believe it
would be beneficial for the INS to train adjudicators both on the I-17
adjudication process, and on recognizing fraud indicators so that they can
better identify mala fide schools. The INS is planning an additional training
session for adjudicators, and we strongly encourage the INS to use this
session to obtain feedback from adjudicators on procedural problems, focus
more on the adjudication process, and train adjudicators to identify fraud
indicators.

       The INS also needs to provide guidance to the INS adjudicators on
what they should be looking for when reviewing the checklists. Many of the
adjudicators we contacted stated that they were not sure what information
they were looking for on the checklists. This was especially a problem with
inexperienced adjudicators. The checklists should be a valuable tool for the
adjudicators. For example, adjudicators could use the checklist to compare
the estimated number of students with the number of available classrooms,
or to identify whether the school possesses the equipment and facilities to
run specialized programs. We suggest that the INS develop a standard
review checklist for the adjudicators, which would become the record of the
certification review. In addition, guidance is needed to specify what actions
adjudicators need to take when the responses on the contract investigator
checklists are incomplete, or indicate other problems, such as a DSO who is
not knowledgeable of INS regulations, a DSO who is also a recruiter, or a
student included in the contract investigator’s sample who may be an
overstay.




U.S. Department of Justice                                              24
Office of the Inspector General
Evaluation & Inspections Division
ADDITIONAL TRAINING NEEDED FOR INS INSPECTORS

          Although new foreign students are currently using SEVIS I-
          20s to enter the United States, the INS has not fully trained
          its inspectors at ports of entry on how to use SEVIS to
          identify whether the alien is a legitimate student.


       It is essential that INS inspectors at ports of entry have a clear
understanding of how to use SEVIS in determining whether to admit an
alien to the United States. For example, inspectors need to know how to
identify a legitimate SEVIS I-20, and how to use SEVIS to verify information
relating to a foreign student’s course of study.

       The INS only recently started providing formal training to its
inspectors at the ports of entry. At the time of our review, the only fully
trained inspectors were at the ports of entry where an inspector was
responsible for certifying schools. The inspectors responsible for certifying
schools attended the INS training sessions in the summer of 2002, along
with other adjudicators, and therefore were able to provide informal training
to their co-workers. When we contacted INS training officers at five major
airports in mid-January 2003, we were told that they had just participated
in a teleconferenced “training the trainers” program. The training officers
intended to formally train the inspectors the following week on how to use
the SEVIS database, which is available on a read-only basis to inspectors in
secondary inspections. The SEVIS database is not available to inspectors at
primary inspections, mainly because training has not yet occurred.20 The
INS has decided to phase-in the SEVIS connectivity at primary inspections,
port by port, after headquarters personnel has provided sufficient training
at each location.




       20 Primary inspection is where the alien is initially interviewed upon entry to the

United States. If the primary inspector determines that a more in-depth interview is
necessary, the alien is sent to a secondary inspector, who has access to a variety of
databases to obtain additional information on the alien.

U.S. Department of Justice                                                            25
Office of the Inspector General
Evaluation & Inspections Division
NECESSARY ACTION TAKEN TO INSTRUCT DSOs

          The INS has taken the necessary action to ensure that
          DSOs are aware of the foreign student program
          requirements.


       To ensure the integrity of SEVIS data, it is essential that DSOs are
adequately trained, because they are responsible for entering SEVIS data
into the system and reporting specific events, such as no-shows, to the INS.

       We believe that the INS has taken reasonable steps to make DSOs
aware of the foreign student program requirements. When a DSO first logs
onto SEVIS, an e-mail message is generated, describing his or her
responsibilities and referencing relevant regulations. In addition, before
accessing SEVIS, a screen appears requiring the DSO to acknowledge
familiarity with the regulations and to agree to comply with the regulations.
The INS also has posted a user manual on its web site. INS officials told us
that they intend to provide an on-line training module to DSOs in the
second quarter of fiscal year 2003. The INS is still considering whether to
initiate a DSO certification program. We support this initiative, which
would require DSOs to complete an on-line training module before being
provided access to SEVIS.


IDENTIFICATION OF FRAUD INDICATORS FROM SEVIS DATA NEEDS
REFERRAL TO ENFORCEMENT

          The INS needs to ensure that it uses SEVIS data to identify
          foreign students who are not complying with their visa
          requirements, as well as fraudulent schools. The INS also
          must ensure that there is a corresponding enforcement
          action.


       In our original report, we recommended that the INS establish a
separate unit at headquarters responsible for analyzing SEVIS data and
identifying non-compliance and possible fraud by schools, such as sham
schools and alien smuggling operations. The INS agreed with this
recommendation.

      In September 2002, the INS hired a consulting firm “to prepare a
report quarterly as to the implementation and use of SEVIS with an


U.S. Department of Justice                                             26
Office of the Inspector General
Evaluation & Inspections Division
emphasis on determining anomalies in data collected.” According to the
statement of work, these reports will show, for each INS-approved school,
no-show rates, drop-out rates, and failures by the school to update SEVIS
records. The reports also will show processing time for the I-17 applications
and reinstatements by INS.21 While identifying non-compliance and
potential fraud is a good first step, the process will only be effective if the
INS ensures that any instances of potential fraud are referred for further
investigation and enforcement action.


SUFFICIENT RESOURCES NEEDED FOR ENFORCEMENT ACTIVITIES

          Due to limited investigative resources, the INS is unable to
          investigate all foreign students who fail to enroll or fail to
          leave the United States once they depart school, sham
          schools, or DSOs who commit foreign student program
          fraud at legitimate schools.


        The INS has taken some action since our original review to identify,
locate, and detain aliens who enter the United States on a student visa but
fail to attend school. However, due to limited investigative resources,
primarily only no-shows who present national security concerns or have
criminal records are actively investigated.22 The INS needs to devote
resources to investigating schools identified through on-site reviews or
through SEVIS data analysis as fraudulent, DSOs who commit fraud, and
students who complete their program but fail to depart the United States.
We believe that foreign student program fraud will continue to exist unless
the INS assigns sufficient resources to conduct investigations of potential
fraud.

       In our original review, we noted that INS investigators did not
routinely pursue foreign students who failed to show up at school, who
failed to depart the United States, or who failed to legally change their
status once they terminated their studies. In addition, INS investigators

          INS regulations allow a student who is out of status to apply for reinstatement to
          21

student status. The student must apply for reinstatement within five months of being out
of status and must demonstrate that the need for reinstatement resulted from
circumstances beyond the student’s control, such as serious injury or illness, closure of
the institution, or a natural disaster.

       22 An alien’s application for a visa would be denied if the consular system indicated

that the alien had a criminal record. An alien who commits a crime after entering the
United States would become a priority for arrest and deportation.

U.S. Department of Justice                                                           27
Office of the Inspector General
Evaluation & Inspections Division
rarely investigated schools; due to the limited number of investigators, these
investigations were a low priority. The lack of enforcement created an
environment conducive to fraud. We also found that the INS was not
routinely entering the names of students reported by schools as no-shows
into the National Automated Immigration Lookout System (NAILS). These
aliens were therefore able to exit and re-enter the United States using their
student visas without being identified as out-of-status.

        The Enhanced Border Security and Visa Entry Reform Act of 2001
requires schools to report to the INS those foreign students who fail to
enroll or commence participation in a course of study within 30 days after
the deadline for registering for classes. Schools that have access to SEVIS
report this information to the INS electronically. Schools that have not yet
received approval from the INS to access SEVIS are required to provide this
information telephonically. According to an INS official, headquarters
investigations staff are currently referring these cases to their field
investigations staff. According to an INS official, headquarters staff need to
first “scrub” the non-SEVIS information by running the alien’s name
through various INS and investigative databases to identify whether the
alien actually entered the United States, whether the alien departed the
United States, whether the alien is attending a different school than the one
indicated on the I-20, and the possible location of the alien. Once a
possible no-show is identified, the information is sent to the relevant INS
investigative field office. However, this does not mean that the alien is
investigated or pursued. Due to the continuing problem of limited
investigative resources and the volume of cases, investigations are focused
primarily on aliens who present a national security concern or who have
committed crimes.

      We also were told that INS headquarters investigative staff are now
entering names of probable no-shows into NAILS. This is a necessary step
to identify these aliens as out-of-status should they leave the United States
and attempt to re-enter or should they otherwise be detained.

       As noted in the prior section, investigators need to actively investigate
both fraudulent schools and DSOs at legitimate schools that are
fraudulently issuing I-20s. Anomalies identified through SEVIS data
analysis, which indicate fraudulent activities may be taking place, such as
an excessive number of no-shows from a particular school, need to be
investigated. Once SEVIS is fully implemented, it also will be possible to
identify those students who fail to depart the United States or fail to change
their status once they complete their studies, and are therefore in the



U.S. Department of Justice                                                28
Office of the Inspector General
Evaluation & Inspections Division
United States illegally. However, foreign student program fraud will
continue to exist unless sufficient investigative resources are provided.


INS OFFICES AND DEPARTMENT OF STATE CONSULAR POSTS HAVE
THE ABILITY TO ACCESS SEVIS

          All necessary offices and personnel, including the service
          centers, ports of entry, district offices, and consular posts,
          are now connected to SEVIS. Although the connection
          between the ports of entry and SEVIS is not in its final
          form, SEVIS is being updated with the information
          mandated under the USA PATRIOT Act of 2001, specifically
          the foreign students’ dates of entry and ports of entry.


       The INS has developed connectivity between SEVIS and the
Interagency Border Security System (IBIS) at all ports of entry.23 This
connectivity became operational at all ports of entry on December 18, 2002.
However, because the INS received reports of inspector confusion, primarily
due to the lack of training, and because the connectivity caused IBIS to
operate more slowly during the busy holiday travel period, the INS turned
off the linkage on December 20, 2002. The INS was able to execute an
interim program to extract the required information on a student’s date of
entry and port of entry from IBIS to update SEVIS. Because connectivity is
not functional at primary inspections, all students possessing SEVIS I-20s
are being sent to secondary inspections, where an inspector enters the data
through the IBIS secondary screens. Starting in February 2003, after the
inspectors are trained, the INS plans to re-test and implement the new IBIS
screens at primary inspections on a port-by-port basis.

      The INS also was mandated under the Enhanced Border Security and
Visa Entry Reform Act of 2001 to establish an electronic means to monitor
and verify the issuance of a visa to a foreign student or an exchange visitor
program participant. According to INS officials, consular posts are
currently transmitting the required information to SEVIS. When a school
issues an I-20, this information is transmitted from SEVIS to the
Department of State’s consular system via a DataShare link. When an alien
applies for a student visa, the consular officer is required to electronically

       23 IBIS is the primary system used by INS inspectors at the ports of entry to review

information on individuals entering the United States. IBIS contains “lookout” databases
maintained by the INS, the U.S. Customs Service, the Department of State, the Drug
Enforcement Administration, and other law enforcement agencies.

U.S. Department of Justice                                                           29
Office of the Inspector General
Evaluation & Inspections Division
verify the validity of the I-20. If the visa is approved, the consular officer is
required to enter the SEVIS ID number into the consular system. The visa
issuance data is transmitted to SEVIS via the DataShare link. This
information is available to the INS inspectors at the ports of entry.24

      According to the INS, on January 1, 2003, SEVIS software was fully
deployed with all its interfaces. This means that INS service centers are
currently able to access SEVIS to enter information related to approvals for
changes of status, and INS district offices are able to access SEVIS to enter
information related to approvals for vocational student reinstatements,
transfers, program extensions, and practical training.


TRANSFER OF THE INS TO THE DHS WILL HAVE A MAJOR IMPACT ON
SEVIS IMPLEMENTATION

          The transfer of the INS to the DHS creates a special
          challenge because responsibility for the foreign student
          program and SEVIS is being shifted from a bureau
          responsible for providing immigration benefits to a bureau
          responsible for enforcing immigration laws.


      The Homeland Security Act of 2002 (Public Law 107-296) transferred
the INS to the Department of Homeland Security (DHS) on March 1, 2003.
The Act mandated that the INS’s functions be split into the Bureau of
Citizenship and Immigration Services, which will focus on benefits
programs, and the Bureau of Border Security, which will focus on
enforcement activities. Section 442 (a)(4) of the Act states:

                     The Assistant Secretary of the Bureau of Border
                     Security shall be responsible for administering the
                     program to collect information relating to
                     nonimmigrant foreign students and other exchange
                     program participants described in section 641 of


         24 Eventually, SEVIS will be connected to the ports of entry through the Entry/Exit

System, which is currently under development. Once connected, primary inspectors will
have the ability to view all pertinent information about the foreign student and exchange
visitor, including information on adjustments, changes, and extensions of status. SEVIS,
along with other systems, will feed information into the Entry/Exit system, which will, in
turn, relay information back to SEVIS. The INS is mandated to implement this system by
December 31, 2003, at air/sea ports of entry; December 31, 2004, at the 50 largest land
ports of entry; and December 31, 2005, at the remaining land ports of entry.

U.S. Department of Justice                                                           30
Office of the Inspector General
Evaluation & Inspections Division
                     the Illegal Immigration Reform and Immigrant
                     Responsibility Act of 1996 (8 U.S.C. 1372),
                     including the Student and Exchange Visitor
                     Information System established under that section,
                     and shall use such information to carry out the
                     enforcement functions of the Bureau.

       On January 30, 2003, the DHS Secretary announced the
reorganization of the DHS to create two new agencies, the Bureau of
Customs and Border Protection, which will encompass the INS’s inspections
functions, and the Bureau of Immigration and Customs Enforcement, which
will encompass the INS’s investigative functions. Both agencies will be part
of the Directorate of Border and Transportation Security. The Bureau of
Immigration and Customs Enforcement is now responsible for SEVIS.

      There is much work to do before SEVIS is fully functioning. The
SEVIS database will not contain complete information on all foreign
students until August 1, 2003. In addition, as of March 1, 2003, the INS
was still in the process of certifying schools, training INS personnel, and
establishing procedures for identifying and following up on program fraud.

       The most pressing issue for the DHS to resolve is deciding who will be
responsible for conducting the certification reviews. Currently the SEVIS
I-17 applications are adjudicated by district office benefits personnel, who
will be part of the Bureau of Citizenship and Immigration Services. Due to
the on-going certification effort, the INS needs to identify and train new
personnel as soon as possible. The INS was considering either transferring
the adjudication responsibility to inspectors at the ports of entry or
establishing a unique position within the investigations unit. However,
because of the recently announced reorganization of the DHS, it may not be
feasible for inspectors to perform this function, since the inspections and
investigations functions will be located in separate bureaus.

      In our original review, we criticized the INS for its fragmented
management of the program, which resulted in a lack of accountability. In
response, the INS centralized foreign student program responsibilities
within the Immigration Services Division (ISD). Because the ISD will no
longer be responsible for the program, we believe that the DHS should
consider establishing a comparable position in the Bureau of Immigration
and Customs Enforcement.




U.S. Department of Justice                                                31
Office of the Inspector General
Evaluation & Inspections Division
                                    CONCLUSION


       The INS has made progress in implementing SEVIS, and we believe
that SEVIS should provide a useful tool to help the INS monitor both foreign
students and the schools that they attend. Nonetheless, as we reported in
our original review, implementing SEVIS alone will not ensure that foreign
students and schools comply with INS regulations. To ensure that only
legitimate schools are provided access to SEVIS, and that approved schools
are complying with SEVIS requirements, sufficient numbers of well-trained
adjudicators must be dedicated to monitoring the schools to identify
potential instances of fraud and noncompliance. When potential instances
of fraud are identified through SEVIS, they must be referred for further
investigation, and enforcement action must be taken against violators.

       We continue to have serious concerns with the INS’s implementation
of SEVIS. The INS has not dedicated adequate resources to the program to
ensure that SEVIS applications are adjudicated promptly, and we found
that the INS’s oversight of the contract investigators who conduct the on-
site reviews of schools is inadequate to ensure the quality of the reviews. In
addition, the INS needs to improve the checklist that the contract
investigators use to make it more useful for the adjudicators, and to provide
better training and guidance to the adjudicators on how to use the
checklists to identify possible fraudulent operations. We also found that the
INS is not taking sufficient actions to ensure that schools are complying
with reporting and recordkeeping requirements. Unless these problems are
addressed, the information collected during on-site reviews, as well as any
INS certifications that are based on that information, will be of questionable
reliability.

       The transfer of the INS to the DHS creates additional challenges for
SEVIS implementation. Responsibility for the foreign student program and
SEVIS has shifted from a bureau focused on providing immigration benefits
to a bureau responsible for enforcing immigration laws. Ensuring that the
SEVIS implementation continues to progress will require prompt
identification of personnel in the new organization who will be responsible
for certifying schools, so that they receive sufficient training and guidance
to administer the program. Based on our observations and analysis, we
have identified a number of actions that can help ensure the effectiveness of
the program for monitoring foreign students attending United States
schools:




U.S. Department of Justice                                             32
Office of the Inspector General
Evaluation & Inspections Division
          •     Appoint a foreign student program manager to coordinate, and be
                accountable for, immigration issues affecting foreign students.

          •     Assign full-time staff whose sole responsibility is to certify and
                monitor schools.

          •     Closely monitor the contract investigators to ensure that they
                conduct on-site reviews in a timely and thorough manner.

          •     Improve the checklists used by the contract investigators in their
                on-site reviews to make them more descriptive and more useful to
                the adjudications staff.

          •     Coordinate with the Department of Education to conduct audits of
                schools to ensure they comply with SEVIS reporting and
                recordkeeping requirements.

          •     Provide training to those responsible for certifying schools on the
                adjudication process and on using the contract investigator
                checklists to identify fraud indicators.

          •     Ensure that possible fraud identified through the adjudication
                process and through analytical reviews is referred for investigation.

          •     Ensure that sufficient investigative resources are available to
                investigate instances of potential fraud identified by SEVIS.

      We believe these actions should be taken and are critical to ensuring
that SEVIS is fully implemented, reliable, and effective.




U.S. Department of Justice                                                        33
Office of the Inspector General
Evaluation & Inspections Division
          APPENDIX I: STATUS OF OIG RECOMMENDATIONS FROM THE
                           ORIGINAL REPORT


     RECOMMENDATION 1: The INS should consider whether a foreign
student program manager should be appointed to coordinate, and be
accountable for, immigration issues affecting foreign students.

      STATUS: The INS implemented this recommendation by centralizing
the responsibility for the foreign student program with the Executive
Associate Commissioner for Field Operations and assigning a senior field
manager to lead the program. With the transfer of the INS to the DHS, to
ensure accountability over this program, this position needs to be
reestablished within the Directorate of Border and Transportation Security.

      RECOMMENDATION 2: The INS should review and approve all
schools currently authorized to issue I-20s before allowing the schools
access to SEVIS. Given the improbability that it will be completed by
January 2003 (since the proposed rule change has not yet been published),
the INS should decide soon on an alternative plan, including determining
how it will proceed in January 2003, if schools are not re-certified, a
reasonable time schedule for re-certifying the schools, and an
implementation plan for achieving the timetable.

      STATUS: The INS has fully complied with this recommendation. The
INS is requiring all schools to reapply for approval before allowing the
schools access to SEVIS.

      RECOMMENDATION 3: The plan to re-certify all schools prior to
implementing SEVIS must also resolve who will be responsible for
conducting the re-certifications, provide adequate guidelines on conducting
the re-certifications, and provide adequate training to those responsible for
performing the re-certifications and making site visits.

      STATUS: The INS has partially complied with this recommendation.
The INS has assigned responsibility for the re-certifications to its field
adjudicators. However, when the INS transfers to the DHS, the DHS will
need to identify who within the Directorate of Border and Transportation
Security will be responsible for responsible for the certification function. In
addition, as identified in our follow-up review, the adjudicators need
additional guidelines and training.




U.S. Department of Justice                                               34
Office of the Inspector General
Evaluation & Inspections Division
       RECOMMENDATION 4: The INS should establish a unit within each
district office responsible for conducting on-site verifications of the INS-
approved schools. Full-time schools officers will be needed, instead of
personnel who have the responsibility as a collateral duty.

       STATUS: The INS did not agree with this recommendation. The INS
instead decided to hire contract investigators to conduct the on-site reviews.
In addition, the INS did not agree that full-time schools officers were
needed, but instead sent a memorandum to its regional directors mandating
that responsibility for monitoring foreign students and schools be
considered a primary duty instead of a collateral duty. We continue to
strongly believe that the INS needs to dedicate full-time staff to this
function. In addition, our follow-up review identified deficiencies in the
INS’s monitoring of its contract investigators, which negatively impact the
effectiveness of the on-site reviews.

      RECOMMENDATION 5: The INS must continue to monitor and
review the schools, since schools lose accreditation, change their objectives,
and sometimes engage in fraud.

       STATUS: The INS agreed with this recommendation and stated that
the monitoring process will consist of requiring schools to undergo re-
certification reviews, including on-site reviews, every two years. The INS
has not yet issued the rules pertaining to the re-certification reviews.

      RECOMMENDATION 6: The INS should ensure that audits are
conducted of approved schools to determine whether proper internal
controls are in place and that data is being entered into SEVIS completely,
accurately, and timely.

       STATUS: The INS agreed with this recommendation and stated that
the primary audit mechanism would be the on-site reviews by the contract
investigators. The INS also plans to identify the need for additional audits
through analysis of SEVIS data. We do not believe that the on-site reviews
conducted by contract investigators will be sufficient to identify internal
control weaknesses or to ensure the integrity of the SEVIS data. In
addition, although the INS has hired contractors to analyze SEVIS data and
identify anomalies, it has not yet established a mechanism for following up
on these anomalies.

       RECOMMENDATION 7: The INS should decide what office or division
will be responsible for analyzing the data that is collected in SEVIS. To fully



U.S. Department of Justice                                              35
Office of the Inspector General
Evaluation & Inspections Division
use SEVIS’s capabilities, the INS needs to assign personnel and establish
policies and procedures to take advantage of this analytic function.

       STATUS: To implement this recommendation, the INS established an
analytic unit, staffed by contract personnel, to identify data anomalies, that
may indicate fraud or noncompliance. While we believe this is a good first
step, the INS still needs to identify how it will follow-up on the anomalies
identified through the analytic reviews.

      RECOMMENDATION 8: To ensure that adequate personnel are
available to devote to re-certifying and monitoring INS-approved schools and
foreign students, the INS should establish fee-paid positions funded out of
the processing fee that will eventually be charged to foreign students.

      STATUS: The INS agreed with our recommendation and, in May
2002, hired a contract firm to perform a fee study. Included in the
proposed costs were 46 INS district officer positions. The proposed fee rule
has not yet been published.

      RECOMMENDATION 9: The INS must also develop a plan for training
both INS employees and school employees on how to use SEVIS. The INS
should develop a timetable for implementing training and an
implementation plan for carrying out the training.

       STATUS: The INS has partially complied with this recommendation.
In June and August 2002, the INS provided training to its adjudicators. In
our follow-up review, however, we determined that additional training is
needed. In addition, the transfer of the INS to the DHS also will result in
the transfer of adjudication responsibilities, which will necessitate
additional training. The INS has not yet completed training its inspectors at
the ports of entry in how to use SEVIS. However, the INS has taken
sufficient steps to ensure school employees are aware of SEVIS
requirements. The INS is still considering whether to initiate a DSO
certification program. We support this initiative, which would require DSOs
to complete an on-line training module before being provided access to
SEVIS.

       RECOMMENDATION 10: SEVIS cannot work unless the necessary
offices and personnel are connected to SEVIS, including service centers,
POEs, district offices, and consular posts. The INS should devote the
resources necessary to ensure that all offices are connected to and are able
to use SEVIS as quickly as possible.



U.S. Department of Justice                                              36
Office of the Inspector General
Evaluation & Inspections Division
          STATUS: The INS has complied with this recommendation.




U.S. Department of Justice                                         37
Office of the Inspector General
Evaluation & Inspections Division
                        APPENDIX II: DHS MANAGEMENT’S RESPONSE

                                                                    U.S. Department of Justice
                                                                    Immigration and Naturalization Service



                                                                                        HQADN 70/2.2

                                                                    425 I Street NW
                                                                    Washington, DC 20536




~
MEM ORANDUM FOR GLENN FINE
                INSPECTOR GENERAL
                DEPARTMENT OF JUSTICE
FROM:                Michael A. Garcia (original signed)
                     Acting Assistant Secretary
                     Bureau of Immigration and Customs Enforcement

SUBJECT:             Follow-up to Draft OIG Report on the Student and Exchange Visitor
                     Information System (SEVIS)

        On March 1, 2003, the Immigration and Naturalization Service (INS) merged into the
Department of Homeland Security. As part of this transition, responsibility for SEVIS changed from
what is now the Bureau of Citizenship and Immigration Services to the Bureau of Immigration and
Customs Enforcement. This memorandum presents the views of both new entities.

SEVIS Implementation:

        We are pleased to advise that by January 1,2003, the INS successfully developed and
deployed all facets of the SEVIS system. SEVIS is part of the overall Student and Exchange Visitor
Program (SEVP), which encompasses other critical components such as, re-certification processes, a
fee payment system, a dedicated budget, and training. By design, the use of SEVIS by schools and
the computer-based entry of student information tracks the actual deployment of the technical system.
Thus, the required use of the system by schools was planned to occur in phases, with reporting related
to new students mandated first, followed by reporting related to continuing students. This multi-phase
approach was described in proposed regulations published in May 2002, highlighted in the INS' fall
2002 congressional testimony, and codified in our December 2002 final regulations25. As a result,

         25 The primary reason for the phased approach to enroll continuing students was to ensure program integrity.

Schools needed adequate time to review and convert the considerable data on their continuing students to SEVIS.


U.S. Department of Justice                                                                                      38
Office of the Inspector General
Evaluation & Inspections Division
Memorandum for Glenn Fine                                                                                      Page 2
Subject: Follow-up to Draft OIG Report on the Student and Exchange
         Visitor Information System (SEVIS)


we respectfully disagree with the OIG's finding that SEVIS implementation was insufficient because
of the phased-in schedule. As stated earlier, SEVIS was deployed fully and in a timely manner
consistent with the schedule previously announced.

Additional issues:

Schools not approved for timely access.

         As of January 31, some schools had not received final decisions as to their applications. Here
it is important to note that not every application filed in SEVIS by November 15, 2003 was ready for
adjudication. In fact, the majority of filings were incomplete (e.g.; they did not include the
appropriate fee or necessary evidence). Of the 893 pending schools cited in your review, 347 had
problems related to payment amounts, and an additional 152 schools were subject to outstanding
requests for additional evidence. This resulted in 394 schools reporting no final action by January 30.
Prior to January 30, the INS contacted each of these schools to determine if they needed to issue the
Form 1-20 immediately. Most schools indicated that it would be entirely acceptable to have the Form
1-20 issued by the end of the following week. Ultimately, all of the schools were fully adjudicated by
February 13. On January 29, INS granted a grace period for schools to issue non-SEVIS I-20's until
February 15, 2003.

Compliance audits not properly performed.

        The on-site reviews developed for initial approval of schools in SEVIS aimed to provide a
summary of each school's understanding of relevant regulations and their past compliance with
record-keeping and reporting requirements. The decision to review five student records at each
school was not intended to establish the comprehensiveness of respective SEVIS records, as the
schools had not yet been entered in that system. Separate regulations will be published regarding the
requirements for future re-certifications in accordance with the Border Security Act, to include
procedures for identifying criteria for a school's compliance with SEVIS.

Additional training and guidance for adjudicators/inspectors.

        With regard to training effectiveness, the INS conducted two extensive training sessions
including all District Adjudication Officers to ensure the dissemination and full understanding of
information related to the SEVIS. During the week of December] 7, the INS' three regional offices,
and offices in Buffalo, Chicago, Seattle, Atlanta, Houston and Honolulu offered pilot training
sessions. Approximately one month later, during the week of January 13, the INS provided detailed


Additionally, Consular officers and Service officers can readily determine the validity of documents if one date for
compliance is established


U.S. Department of Justice                                                                                         39
Office of the Inspector General
Evaluation & Inspections Division
Memorandum for Glenn Fine                                                                      Page 3
Subject: Follow-up to Draft DIG Report on the Student and Exchange
        Visitor Information System (SEVIS)


SEVIS training to a total of 107 sites (including those nine selected for the initial pilot test), with
instructions on current guidelines,

regulations and processing protocols reflecting the new SEVIS Forms 1-20 and DS-2019.
Training participants reported satisfaction with the information supplied and opportunity for
interactive questioning. In the future, the Department of Homeland Security through the Bureau
of Immigration and Customs Enforcement will continue to provide effective, . periodic training to
all SEVIS personnel.

Sufficient resources needed for enforcement procedures.

        We agree that more resources are critically important to ensure proper enforcement of
SEVIS. Unfortunately these resources are not presently available. We seek approval of a student
fee regulation that would provide funding for the SEVIS program.

If there are additional questions or concerns, please contact Maura Deadrick at 202-353-3065 or
via cc:Mail.




U.S. Department of Justice                                                                         40
Office of the Inspector General
Evaluation & Inspections Division
         APPENDIX III: OIG ANALYSIS OF MANAGEMENT’S RESPONSE


        On February 27, 2003, the Evaluation and Inspections Division
sent copies of the draft report to the Immigration and Naturalization
Service’s (INS) senior management. On March 1, 2003, the INS
transferred to the Department of Homeland Security (DHS). The Acting
Assistant Secretary, Bureau of Immigration and Customs Enforcement,
DHS, which is now responsible for the Student and Exchange Visitor
Information System (SEVIS), responded by memorandum dated
March 5, 2003 (the “response”). This response is included in Appendix
II.

      The response commented on five issues in our report: SEVIS
implementation, the INS’s approval of schools for timely access to SEVIS,
compliance audits, training and guidance for adjudicators and
inspectors, and enforcement resources. Our analysis of the comments
regarding each of the five issues follows.

SEVIS Implementation

       In response to our finding that SEVIS was not fully implemented
by the January 1, 2003, deadline imposed by Congress, the response
argued that the INS had met the deadline because it “successfully
developed and deployed all facets of the SEVIS system.” The response
distinguished between the technical availability of SEVIS and the
implementation of the Student and Exchange Visitor Program, which
includes elements such as re-certification processes, a fee payment
system, a dedicated budget, and training. The response also disagreed
with “the OIG’s finding that SEVIS implementation was insufficient
because of the phased-in schedule” it is using to deploy SEVIS. The
response stated that this phased-in approach was fully described in the
May 2002 proposed SEVIS rule and is necessary to provide schools with
adequate time to review and convert data on their continuing students
for transfer to SEVIS.

       OIG analysis: The argument that SEVIS was in fact fully
implemented by the January 1, 2003, deadline is based on the INS’s
interpretation that “implementation” means technical availability of
SEVIS. However, in our view, SEVIS cannot be viewed separately from
the overall Student and Exchange Visitor Program. Full deployment
requires that all elements of the program be functional to ensure the
integrity of SEVIS. Our finding that SEVIS was not fully implemented as

U.S. Department of Justice                                            41
Office of the Inspector General
Evaluation & Inspections Division
of January 1, 2003, was not based solely on the INS’s deployment of a
phased-in schedule. Instead, as stated in our testimony in September
2002 and in this report, we believe full implementation includes not only
the technical availability of SEVIS, but also: ensuring that sufficient
resources are devoted to the foreign student program; ensuring that only
bona fide schools are provided access to SEVIS; adequately training DHS
employees and school representatives; ensuring that schools are
completely and accurately entering information on their foreign students
into SEVIS in a timely manner; and establishing procedures for using
SEVIS data to identify noncompliant and fraudulent operations as well
as following up when SEVIS data indicates fraud in a school’s program.

       As our report indicates, as of January 1, 2003, many critical
aspects of the program had not yet been implemented. Specifically, we
found that the INS did not devote sufficient resources to performing the
certification reviews of the schools’ applications; the on-site reviews of
the schools conducted by contract investigators were deficient and there
was no assurance that only bona fide schools were approved for access
to SEVIS; adjudicators needed additional training to help them identify
fraud indicators; no process was in place to verify the integrity of the
data that the schools are entering into SEVIS; and there are insufficient
procedures in place to use SEVIS to identify noncompliant and
fraudulent operations and to follow up when SEVIS data indicates fraud.

Schools Not Approved for Timely Access

       In response to our finding that the INS failed to meet its promised
deadline of January 30, 2003, for adjudicating all school applications
filed by November 15, 2002, the response stated that the majority of
those filings were incomplete (e.g., they did not include the appropriate
fee or necessary evidence) and therefore not ready for adjudication.
According to the response, of the 893 applications still pending as of
January 30, 2003, 394 cases had not been acted upon, 347 had been
reviewed but were pending due to payment problems, and 152 had been
reviewed but were pending due to outstanding requests for supporting
documentation. The response also stated that the INS contacted schools
to determine whether they had an immediate need to issue I-20s, and
noted that the INS ultimately extended the deadline to
February 15, 2003, by which time it was able to complete the
adjudication of all applications submitted by November 15, 2002.

      OIG analysis: As we describe in our report, the INS process called
for schools to submit electronic I-17 applications to the INS. The INS

U.S. Department of Justice                                             42
Office of the Inspector General
Evaluation & Inspections Division
then relied on its contract investigators to collect supporting
documentation from the schools during on-site reviews. Therefore, all
applications initially submitted by the schools would necessarily be
incomplete. During our review, neither INS management nor INS field
adjudicators cited payment problems as the reason for delays in
approving applications. Instead, both INS management and INS field
adjudicators attributed the processing delays to the failure of the
contract investigators to conduct timely on-site reviews and to properly
collect and submit the supporting documentation to the INS field
adjudicators. Because the INS was responsible for monitoring the
contractors, this is a failure on the part of the INS - not the schools.

      We agree that the INS took appropriate action by extending its
deadline when it realized it could not process all the school applications
by January 30, 2003. This protected schools from being penalized for
the INS’s program management problems. However, we concluded the
INS did not properly manage the adjudication process to complete all
applications due by January 30, 2003.

Compliance Audits Not Properly Performed

       In response to our finding that the INS is inappropriately using
contract investigator checklists to determine if schools have adequate
internal controls in place and whether schools are entering data into
SEVIS accurately, completely, and timely, the response stated that the
purpose of the on-site reviews was to summarize schools’ understanding
of regulations and their past compliance with recordkeeping and
reporting requirements. Further, the response stated that the review of
five student records was not intended to establish the
comprehensiveness of the SEVIS records. The response also added that
future regulations will include criteria for identifying a school’s
compliance with SEVIS.

      OIG analysis: The response is not consistent with the INS’s earlier
representations to us about how it planned to accomplish reviews of
schools’ internal controls. In our May 2002 report, we recommended
that the INS conduct audits of approved schools to determine whether
proper internal controls were in place and that data was entered into
SEVIS completely, accurately, and timely. On July 15, 2002, the INS
responded that the primary audit mechanism would be site visits
conducted every two years, and that the need for additional audits would
be identified through analytical reviews. On September 13, 2002, we
expressed our concerns to the INS about contract investigators’

U.S. Department of Justice                                              43
Office of the Inspector General
Evaluation & Inspections Division
qualifications to perform audits. On December 23, 2002, the INS
responded and referred us to the on-site review checklists that would be
used by contract investigators. Our review of that process led us to
conclude that it is ineffective to meet the need for independent audits of
schools’ internal controls.

       We continue to believe that compliance audits are essential to
ensure that schools are entering data on foreign students into SEVIS
timely, completely, and accurately, and that schools have adequate
internal controls in place to prevent and detect fraud in their foreign
student program. Without these audits, the data in SEVIS will be
unreliable. While the deficiencies in verifying schools’ compliance with
reporting and recordkeeping requirements may be addressed by future
regulations, the contract investigator site visits and checklists are not
effective for ensuring proper internal controls.

Additional Training and Guidance for Adjudicators and Inspectors

       In response to our finding that more SEVIS training is needed, the
response described the SEVIS training that the INS provided to its
adjudicators. In addition, the INS held pilot training sessions at nine
locations during the week of December 17, 2002, and SEVIS training at
107 sites (including the original nine) during the week of
January 13, 2003. According to the response, the training participants
“reported satisfaction with the information supplied and opportunity for
interactive questioning.”

       OIG analysis: The training provided to the adjudicators (in June
and August 2002), as well as the training provided during the week of
January 13, 2003, were discussed in our report. Specifically, our report
includes a description of the two training sessions provided to INS
adjudicators in 2002, and the adjudicators’ impressions of that training
at the ten INS district offices we contacted. Contrary to the response, in
our discussions the adjudicators cited several training areas that were
deficient, which we noted in the report. In addition, during our review
we found that adjudicators were unfamiliar with the types of responses
on the contract investigator checklist that might indicate a fraudulent
school. We therefore maintain our recommendation that the INS
incorporate the identification of fraud indicators into its future
adjudicator training sessions. Our report also included information on
the January 13, 2003, training conducted for the INS training officers at
ports of entry. At the time of our review, this training was on-going and
therefore we were unable to assess its effectiveness.

U.S. Department of Justice                                              44
Office of the Inspector General
Evaluation & Inspections Division
      During our review, neither INS management nor INS field
personnel mentioned the December 17, 2002, pilot testing cited in the
response. After receiving the response, we requested additional
information from INS management regarding this “training,” and
confirmed that it was a pilot test of the SEVIS training program, which
the INS had developed on December 2, 2002. The training session
ultimately developed was repeated at the pilot locations.

Sufficient Resources Needed for Enforcement Procedures

      The response acknowledged that additional resources are needed
to ensure proper enforcement of SEVIS, but stated that the resources are
currently unavailable. The DHS plans to seek approval of a regulation
establishing a foreign student fee, which would provide funding for the
SEVIS program.

      OIG analysis: The response is consistent with recommendations
we have made in the past. In our May 2002 report, we suggested that
the INS use the fees paid by foreign students to fund adjudicator,
investigator, and analyst positions.




U.S. Department of Justice                                            45
Office of the Inspector General
Evaluation & Inspections Division
